               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03421-49


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

       White River Junction 

         VA Medical Center 

   White River Junction, Vermont 





January 22, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         Fiscal year
                       MI         Motivational Interviewing
                       MM         Medication management
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PII        personally identifiable information
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
             CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology........................................................................                        1

  Objectives ...............................................................................................................      1

  Scope ......................................................................................................................    1

  Methodology ............................................................................................................        1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              18

  F. Report Distribution .............................................................................................            19

  G. Endnotes ...........................................................................................................         20





VA OIG Office of Healthcare Inspections
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of December 2, 2013, at the
Brattleboro CBOC, Brattleboro, VT, which is under the oversight of the White River
Junction VA Medical Center and Veterans Integrated Service Network 1.

Review Results:        The review covered four activities.      We made no
recommendations in the Designated Women’s Health Providers’ Proficiency review.
However, we made recommendations in the following review areas.

Environment of Care. Ensure that:

	 Personally identifiable information is protected by appropriately securing laboratory
   specimens during transport from the Brattleboro CBOC to the White River Junction
   VA Medical Center.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	 Registered Nurse Care Managers receive motivational interviewing and health
   coaching training within 12 months of appointment to PACT.

Medication Management. Ensure that CBOC/PCC:

	 Staff document that medication reconciliation was completed at each episode of
   care where the newly prescribed fluoroquinolone was administered, prescribed, or
   modified.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14–17, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                                 Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                         i
             CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
           CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                       Study Population
          AUD                  All CBOC and PCC patients screened within the study period of July
                               1, 2012, through June 30, 2013, and who had a positive AUDIT-C
                               scoreb and all providers and RN Care managers assigned to PACT
                               prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of the
                               three selected fluoroquinolones from July 1, 2012, through June 30,
                               2013.
    DWHP Proficiencies         All WH Primary Care Providers designated as DWHPs as of October
                               1, 2012, and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                   CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Brattleboro CBOC.
The table below shows the areas reviewed for this topic. The area marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., Mental Health
       clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                  3
                   CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


 X     PII is protected on laboratory specimens           PII was not protected on laboratory specimens
       during transport so that patient privacy is        during transport.
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient identifiable
       information are not visible or unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that managers ensure that PII is protected by securing laboratory
specimens during transport from the Brattleboro CBOC to the White River Junction VA Medical
Center.




VA OIG Office of Healthcare Inspections                                                                   4
                   CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 12 of 12 RN Care Managers did
       received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 7 of 12 RN Care Managers did
       received National Center for Health Promotion      not receive health coaching training within 12
       and Disease Prevention approved health             months of appointment to PACT.
       coaching training within 12 months of
       appointment to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

2. We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                    5
                   CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The area marked
as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 29 (74 percent) of 39 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendation

3. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.




VA OIG Office of Healthcare Inspections                                                                     6
                   CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.




VA OIG Office of Healthcare Inspections                                                                  7
                                                          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                                                                      Appendix A


                                                                      CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.


                                                                                      Uniquesd                                Encountersd

                                    Station                 CBOC
         Location           State             Localitye                MHg      PCh        Otheri      All       MHg       PCh      Otheri        All
                                       #                     Sizef
    Colchester               VT     405HA      Urban       Mid-Size    957     4,301       3,193     4,860      8,356      9,954    10,064       28,374
    VICC - St.
                             NH     405HC      Rural       Mid-Size    401     2,440        663      2,656      2,760      6,387      928        10,075
    Johnsbury - Littleton
    Bennington               VT     405GA      Rural       Mid-Size    382     1,583       1,274     1,775      3,627      5,324     5,317       14,268
    Rutland                  VT     405HF      Rural        Small      146     1,407        520      1,494       777       3,452      918        5,147
    Brattleboro              VT     405GC      Rural        Small      264      598         335       747       2,253      2,270     1,119       5,642




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                   8
              CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


                                   CBOC Services Provided 

In addition to primary care integrated with WH and Mental Health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.j

                                                                                              Tele-Health
              CBOC           Specialty Care Servicesk         Ancillary Servicesl
                                                                                               Servicesm
    Colchester                       Optometry                    Audiology                Tele Primary Care
                                      Podiatry                MOVE! Programn
                                     Cardiology              Electrocardiography
    VICC - St. Johnsbury -               ---                 Electrocardiography           Tele Primary Care
    Littleton                                                   Rehabilitation
    Bennington                           ---                   MOVE! Program               Tele Primary Care
                                                                Hypertension
                                                             Electrocardiography
                                                                Rehabilitation
    Rutland                              ---                    Rehabilitation             Tele Primary Care
    Brattleboro                       Podiatry                  Rehabilitation             Tele Primary Care
                                                               MOVE! Program
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                          9
                                                                      CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                                                                                  Appendix B


                                                                        PACT Compass Metrics 

                                                   FY 2013 Average 3rd Next Available in PC Clinics
                               35.0
   Average Number of Days




                               30.0
                               25.0
                               20.0
                               15.0
                               10.0
                                 5.0
                                 0.0
                                                                                                                               VICC, St.
                                                      White River         Bennington       Brattleboro      Colchester
                                       VHA Total                                                                              Johnsbury,      Rutland (405HF)
                                                     Junction (405)        (405GA)          (405GC)          (405HA)
                                                                                                                          Littleton (405HC)
                            OCT FY13     14.6             26.3               11.1             20.2             11.1              2.9               17.7
                            NOV FY13     15.2             21.8                9.5             19.1             10.2              3.6               21.6
                            DEC FY13     13.8             24.7                1.7             32.4             11.5              4.4               22.9
                            JAN FY13     14.0             17.9                4.6             33.3              5.2             13.7               30.7
                            FEB FY13     14.8             20.3                4.8             18.2             10.8             12.7               13.8
                            MAR FY13     13.3             17.8                3.3             13.5              6.1             13.1               14.2
                            APR FY13     14.4             20.9                4.4             10.2              7.3             20.3               16.1
                            MAY FY13     16.0             23.3                5.9             11.7              7.0             21.4               15.9
                            JUN FY13     14.2             18.0                5.0             10.8              9.5             13.2               16.8
                            JUL FY13     14.6             18.7                7.5             11.1             10.3             13.9                6.6
                            AUG FY13     15.7             17.5                5.5             31.7              9.3              6.9               11.9
                            SEP FY13     13.4             21.1                2.4             21.7             18.1             19.5                8.2


Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.


VA OIG Office of Healthcare Inspections                                                                                                                         10
                                                                        CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                                                           FY 2013 Established PC Prospective Wait Times 7 Days
                                               100%
           Percentage of Patients Scheduled 
            Within 7 Days of Desired Date
                                               80%



                                               60%



                                               40%



                                               20%



                                                0%
                                                      OCT FY13 NOV FY13 DEC FY13 JAN FY13 FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13 AUG FY13 SEP FY13
     VHA Total                                         83.5%    81.1%      82.4%    82.6%   83.2%   83.6%    84.0%    84.0%    84.1%      84.3%    84.5%    84.7%
     White River Junction (405)                        83.1%    82.5%      80.1%    80.1%   81.3%   86.8%    92.5%    91.8%    93.6%      93.9%    94.1%    94.8%
     Bennington (405GA)                                94.5%    89.3%      91.3%   100.0%   91.9%   100.0%   97.1%    100.0%   100.0%    100.0%    96.8%    100.0%
     Brattleboro (405GC)                               89.5%    89.5%      93.5%    90.9%   87.5%   100.0%   100.0%   100.0%   100.0%    100.0%   100.0%    100.0%
     Colchester (405HA)                                95.5%    91.7%      92.9%    92.4%   96.3%   95.1%    96.0%    95.2%    97.0%      96.8%    96.4%    96.1%
     VICC, St. Johnsbury, Littleton (405HC)            97.5%    97.9%      98.5%    98.4%   97.8%   97.7%    98.3%    98.4%    98.7%      98.9%    98.7%    98.9%
     Rutland (405HF)                                   45.2%    44.0%      51.1%    56.4%   82.8%   83.7%    94.0%    93.7%    98.0%      97.5%    98.3%    90.4%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.




VA OIG Office of Healthcare Inspections                                                                                                                              11
                                                                                          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


                                                                                   FY 2013 Ratio of ER Encounters While on Panel to

                                                                             17%
                                                                                   PC Encounters  While on Panel (FEE ER Included)




                              Percentage of ER Encounters to PC Encounters
                                                                             16%
                                                                             15%
                                                                             14%
                                                                             13%
                                                                             12%
                                                                             11%
                                                                             10%
                                                                              9%
                                                                              8%
                                                                              7%
                                                                              6%
                                                                              5%
                                                                              4%
                                                                              3%
                                                                              2%
                                                                              1%
                                                                              0%
                                                                                   OCT    NOV    DEC    JAN     FEB   MAR    APR    MAY    JUN     JUL   AUG     SEP
                                                                                   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13   FY13
        VHA Total                                                                  16.3% 16.3% 16.4% 16.3% 16.3% 16.3% 16.1% 16.1% 16.0% 15.9% 15.8% 15.7%
        White River Junction (405)                                                 11.0% 10.3% 10.0% 9.9% 10.0% 9.8%         9.7%   9.6%   9.7%   9.8%   9.7%   9.8%
        Bennington (405GA)                                                         1.1%   1.0%   1.0%   1.1%   1.0%   1.1%   1.0%   0.9%   1.0%   0.9%   0.9%   0.9%
        Brattleboro (405GC)                                                        4.9%   5.3%   4.9%   5.1%   5.2%   5.3%   4.7%   4.6%   4.5%   4.5%   3.9%   3.8%
        Colchester (405HA)                                                         3.6%   3.6%   3.6%   3.5%   3.6%   3.6%   3.5%   3.3%   3.3%   3.0%   3.0%   2.9%
        VICC, St. Johnsbury, Littleton (405HC) 3.0%                                       3.1%   3.2%   3.2%   3.2%   3.4%   3.0%   3.1%   3.0%   2.9%   2.6%   2.7%
        Rutland (405HF)                                                            3.7%   3.7%   3.7%   3.7%   4.0%   4.1%   4.1%   4.1%   4.0%   3.2%   3.2%   3.2%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.



VA OIG Office of Healthcare Inspections                                                                                                                                       12
                                                       CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT



                                        FY 2013 2‐Day Contact Post Disharge Ratio
      100%
        90%
        80%
        70%
        60%
        50%
        40%
        30%
        20%
        10%
         0%
                                  White River Junction                                                               VICC, St. Johnsbury,
                    VHA Total                          Bennington (405GA) Brattleboro (405GC)   Colchester (405HA)                          Rutland (405HF)
                                         (405)                                                                        Littleton (405HC)
     OCT FY13        52.8%               80.3%               50.0%               16.7%                38.9%                 50.0%               42.9%
     NOV FY13        52.9%               85.9%               0.0%                40.0%                15.4%                 50.0%                0.0%
     DEC FY13        51.5%               76.9%               14.3%               50.0%                22.2%                 18.2%               40.0%
     JAN FY13        57.2%               84.2%               0.0%                50.0%                16.7%                 66.7%               36.4%
     FEB FY13        60.4%               81.7%               30.0%              100.0%                11.8%                 83.3%               14.3%
     MAR FY13        64.4%               84.7%               30.0%               14.3%                59.1%                 53.3%               30.0%
     APR FY13        65.5%               91.3%               54.5%              100.0%                66.7%                 45.5%               36.4%
     MAY FY13        66.1%               83.1%               62.5%               50.0%                83.3%                 85.0%               83.3%
     JUN FY13        70.1%               83.5%               54.5%              100.0%                84.6%                 92.3%                0.0%
     JUL FY13        71.1%               86.3%               66.7%              100.0%                82.4%                 76.2%                0.0%
     AUG FY13        72.7%               82.9%               50.0%              100.0%                78.6%                 38.5%                0.0%
     SEP FY13        68.9%               71.8%               0.0%               100.0%                82.4%                 75.0%               12.5%



Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.



VA OIG Office of Healthcare Inspections                                                                                                                       13
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                      Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:        December 31, 2013

          From: 	       Director, VA New England Healthcare System, 

                        VISN 1 (10N1) 


       Subject: 	       CBOC and PCC Reviews of the White River Junction VA
                        Medical Center, White River Junction, VT

             To:        Director, Bedford Office of Healthcare Inspections (54BN)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       I have reviewed and concur with the action plans regarding the
       Community Based Outpatient Clinic and Primary Care Clinic Reviews at
       White River Junction VA Medical Center, White River Junction, VT.

       Sincerely,

       (original signed by:)

       Michael Mayo-Smith, MD, MPH
       Network Director




VA OIG Office of Healthcare Inspections                                                        14
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                      Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:        December 31, 2013

          From: 	       Director, White River Junction VA Medical Center, White
                        River Junction, VT (405/00)

       Subject: 	       CBOC and PCC Reviews of the White River Junction VA
                        Medical Center, White River Junction, VT

             To: 	      Director, VA New England Healthcare System VISN 1
                        (10N1)

       I have reviewed and concur with the action plans regarding the
       Community Based Outpatient Clinic and Primary Care Clinic Reviews at
       White River Junction VA Medical Center, White River Junction, VT.

       Sincerely,

       (original signed by:)

       Deborah Amdur
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                        15
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that PII is protected by
appropriately securing laboratory specimens during transport from the Brattleboro
CBOC to the White River Junction VA Medical Center.

Concur

Target date for completion: January 6, 2014

Facility response: The facility concurs with this recommendation. Effective Monday
January 6, 2014, WRJ CBOCs (7) will implement use of secure tamper-evident opaque
specimen transport units. This system scheduled for implementation meets necessary
security requirements as recommended by OIG and the VISN 1 Lab QA Manager.

Recommendation 2. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: See below

Facility response: The facility concurs with this recommendation. The following action
plan is in place:

TEACH Training:

   1. RN Care Managers identified as deficient in TEACH training as of December 30,
      2013 will complete TEACH training as part of annual All Employee Education
      Days scheduled to take place on February 11, 2014.
   2. Effective January 1, 2014, assignment of TEACH training will be initiated at job
      hire and tracked through the TMS system. TEACH training will be completed
      within 12 months of appointment to PACT.

MI Training:

RN Care Managers identified as deficient in MI training as of December 30, 2013, will
complete MI training on or before the facility 2014 August All Employee Education Days.

Effective January 1, 2014, assignment of MI training will be initiated at job hire and
tracked through the TMS system. MI training will be completed within 12 months of
appointment to PACT.



VA OIG Office of Healthcare Inspections                                                        16
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT


Recommendation 3.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: March 1, 2014

Facility response: The facility concurs with this recommendation. Local facility policy
addressing requirements for medication reconciliation is under development and will be
published by February 15, 2014. In addition, compliance with requirements for
medication reconciliation will be monitored through the facility Medical Records
Committee with quarterly oversight reporting to the Chief of Staff, through the Clinical
Executive Board (CEB). Medical Records monitoring is scheduled to begin March 1,
2014.




VA OIG Office of Healthcare Inspections                                                        17
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Elaine Kahigian, RN, JD, Team Leader
Contributors 	          Annette Acosta, RN, MN
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Claire McDonald, MPA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        18
          CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Director, White River Junction VA Medical Center (405/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Patrick Leahy, Bernard Sanders
U.S. House of Representatives: Peter Welch


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        19
           CBOC and PCC Reviews at White River Junction VA Medical Center, White River Junction, VT
                                                                                       Appendix G

                                             Endnotes 


1
  References used for the EOC review included:
  US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
  US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
   Privacy Rule, August 14, 2002.
 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
    for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
    Primary Care Provider (PCP) Proficiency, July 8, 2013.
 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                  20
